f
It

3Jn tlje Supreme Court of tlje fHnttetr H>tate£

MICHAEL MOGAN,
Petitioner
v.
Jeff Henry, Et Al.
Respondents
CERTIFICATE OF SERVICE

I Michael Mogan hereby certify that on this 30th day of April 2021,1 caused three
copies of the Petition for a Writ of Certiorari to be served by United States Postal
Service via Priority Mail Express, as required by U.S. Supreme Court Rule 29.5(c)
on:
Michele Floyd
Sacks, Ricketts & Case, LLP
177 Post Street
Suite 650
San Francisco, CA 94108
mfloyd@srclaw.com
(415) 504-3070
Attorneys for Respondents Jeff Henry, Dave Wilner and Sanaz Evrahini
Corporation Service Company Which Will Do Business
In California As CSC - Lawyers Incorporating Service
c/o Airbnb Inc.
2710 Gateway Oaks Drive, Suite 15ON
Sacramento, CA 95833

' Received
WW-5 2021

Office of the Attorney General
1300 "I" Street
Sacramento, CA 95814-2919
Hon. Judge Ethan P. Schulman
San Francisco Superior Court
400 McAllister St., Dept 302
San Francisco, CA 94102-4514
Court Of Appeal
350 Mcallister Street, 1st Floor
San Francisco, CA 94102
An electronic copy was also emailed to Respondent’s counsel Michele Floyd at the
following email address:
mfloyd@srclaw.com
All parties required to be served have been served.

Michael Mi
Petitioner - Pro Se
1439 N. Highland Ave.
PMB 1116
Los Angeles, CA 90028
(949) 424-5237
mm@michaelmogan.com

Sworn to and subscribed before me this 30th day of April 2021.
;

OFFICIAL SEAL
CHRISTIAN J LEONARD
NOTARY PUBLIC - STATE OF ILLINOIS
MY COMMISSION EXPIRES:03/12/24

